                                                                           Legal Services Corporation

qL LSC                                                                     Office of Inspector General




lnspector General
Jeffrey E. Schanz



        February 5, 2009

        Ms. Deierdre L. Weir
        Executive Director
        Legal Aid and Defender Association
        613 Abbott Street
        Detroit, MI 48226

        Dear Ms. Weir:

        Enclosed is the Office of lnspector General's final report on the results of our
        audit on Selected Internal Controls at Legal Aid and Defender Association, Inc.
        A review of your response with regard to the findings and recommendations in
        the draft report disclosed that the actions taken fully address Recommendations
        6, 7, 8, 9, and 11 of this report.            Based on your comments, these
        recommendations are considered closed.

        Your response to the draft report described actions to address
        Recommendations 1, 2, 3, and 4. However, the actions are not sufficient to
        address the issues indentified in the findings.           Therefore, these
        recommendations will remain open and be forwarded, along with the associated
        questioned costs, to LSC management for action.

       While management actions do address Recommendations 5 and 10, the
       questioned costs identified in the findings will be referred to LSC management.
       Thus, these recommendations will remain open pending LSC management
       action on the questioned costs.

       I want to thank you and your staff for the cooperation and assistance you
       provided us.

       Sincerely,




       lnspector General

       cc:     Leqal Services Corporation
               Helaine Barnett, President                                  3333 K Street, NW 3rd Floor
                                                                           Washington, DC 20007-3522
                                                                           Phone 202.295.1660 Fax 202.337.6616
                                                                           www.oig.lsc.gov
     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




  REPORT ON SELECTED INTERNAL
           CONTROLS


LEGAL AID AND DEFENDER ASSOCIATION, INC


              RNO 423148



          Report No. AU09-02
              February 2009

             www.oig.lsc.gov
                                        TABLE OF CONTENTS


INTRODUCTION ..................................................................... .......................

BACKGROUND ............................................................................................. I

OBJECTIVE ................................................................................................... I

SCOPE AND METHODOLOGY ...................................................................I

OVERALL EVALUATION ..............................................................................2

RESULTS OF AUDIT ....................................................................................
                                                                                               3

     FOLLOW-UP ON GAO CONCERNS ......................................................3
      Information Technology Contract.......................................................... 3
         Recommendation 1 ........................................................................... 4
         Recommendation 2 ........................................................................... 4
         Recommendation 3 ........................................................................... 4
         Grantee Management Comments .................................................... 4
         Evaluation of Grantee Management Comments ..............................                     4

       Travel Payments....................................................................................5
         Recommendation 4 ...........................................................................6
         Grantee Management Comments ....................................................6
         Evaluation of Grantee Management Comments .............................. 7

      Alcohol and Alcohol Related Disbursements .......................................               8
         Recommendation 5 ........................................................................... 8
        Grantee Management Comments ....................................................9
         Evaluation of Grantee Management Comments ..............................9

    NON-GAO ISSUES IDENTIFIED DURING AUDIT ..............................10
     Building Mortgage Paid with LSC Funds ............................................I 0
       Recommendation 6 ......................................................................... I 0
       Recommendation 7 ......................................................................... I 0
       Recommendation 8 ......................................................................... I 0
       Grantee Management Comments .................................................. I 0
       Evaluation of Grantee Management Comments ............................11

      Telephone Intake................................................................................. II
        Recommendation 9 .........................................................................12
        Grantee Management Comments .................................................. 12
        Evaluation of Grantee Management Comments ............................12
     Cost Allocations Not Always Supported ............................................ 12
      Recommendation 10 ....................................................................... 13
      Grantee Management Comments .................................................. 13
      Evaluation of Grantee Management Comments ............................13

     Allocation of Indirect Costs ................................................................ 13
       Recommendation 11 ...................   ..................................................14
       Grantee Management Comments ..................................................             14
       Evaluation of Grantee Management Comments ............................14

GRANTEE MANAGEMENT COMMENTS ................................ APPENDIX I
                                 INTRODUCTION


In November 2007, management of the Legal Services Corporation (LSC)
referred to the Office of Inspector General (OIG) for follow-up, instances of
internal control weakness at certain LSC grantees identified in the Government
Accountability Office (GAO) Draft Report entitled, Legal Services Corporation -
Improved Internal Controls Needed in Grants Management and Oversight, or
indentified in a November 13, 2007 meeting between GAO and LSC staff.

LSC management requested that the OIG assess whether the issues specifically
identified by GAO had been corrected at each of grantees referred to the OIG by
management.


                                 BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO found control weaknesses at 9 of
the 14 grantee sites it visited. These weaknesses included using LSC grant
funds for expenditures with insufficient supporting documentation, and for
unusual contractor arrangements, alcohol purchases, employee interest-free
loans, lobbying fees, late fees, and earnest money.


                                   OBJECTIVE

Our overall objective was to determine whether the conditions cited in the GAO
report were corrected and controls put in place by Legal Aid and Defender
Association, Inc. of Detroit (grantee) to detect similar situations and prevent them
from recurring.      In addition, we evaluated other selected financial and
administrative areas and tested the related controls to ensure that expenditures
were adequately supported and allowed under the LSC Act and regulations.


                         SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process;
employee benefits and reimbursements; and disbursements. To obtain an
understanding of the internal control over these areas, we reviewed grantee
policies and procedures, including any manuals, guidelines, memoranda, and
directives setting forth current grantee practices. We interviewed grantee
officials to obtain an understanding of the internal control framework and
interviewed grantee management and staff as to their knowledge and
understanding of the processes in place.

We conducted fieldwork at the grantee's central administrative office in Detroit.
To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, we reviewed disbursements from a judgmentally
selected sample of vendors and employees. To assess the appropriateness of
grantee expenditures, we reviewed invoices, vendor lists, and general ledger
details. The appropriateness of grantee expenditures was evaluated on the
basis of grant agreements, applicable laws and regulations, and LSC policy
guidance. This review was limited in scope and was not sufficient for expressing
an opinion on the entire system of grantee internal controls or compliance.

Audit fieldwork was conducted from April 21 through April 25, 2008. Documents
reviewed pertained to the period January 1, 2007 through March 31, 2008,
except for our review of the information technology contract, which covered the
period January I,2005 through February 29, 2008. Our work was conducted at
the grantee's site and at LSC headquarters in Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                            OVERALL EVALUATION

We found that the issues raised in the GAO report still existed at the Legal Aid
and Defender Association, Inc. of Detroit. The information technology (IT)
contract did not reflect the grantee's current IT situation and resulted in payments
exceeding the contract terms; travel expenses were not adequately documented;
and LSC funds were used to purchase alcohol.

In addition to the GAO issues, we found that:

   1. LSC funds were used for mortgage payments, creating a reversionary
      interest to LSC which was not properly documented;
   2. The intake staff did not inquire about callers' citizenship or alien status
      during telephone intake screening;
   3. Some cost reallocations were not adequately supported; and
   4. Allocations of indirect costs were not adjusted at year end for actual
      charges.
With regard to disbursements, we reviewed 181 transactions amounting to
$962,000 from 24 judgmentally selected vendors and grantee staff to determine
whether disbursements were supported, allowable, and properly allocated to
LSC. With the exception of the findings noted above, the disbursements were
supported, allowable and properly allocated.


                               RESULTS OF AUDIT

FOLLOW-UP ON GAO CONCERNS

GAO identified internal control weaknesses at this grantee dealing with unusual
contract arrangements, documenting travel expenses and using grant funds for
alcohol purchases.

       Information Technology Contract

GAO reported an unusual contractor arrangement with the individual who
provided IT services to the grantee. We found that the grantee reimbursed its IT
contractor about $464,000 more than the $300,800 authorized by the contract for
the period January I , 2005 through February 29, 2008. Over $267,000 of the
amount paid above the contract terms was paid with LSC funds.

The contractor was engaged to operate the grantee's IT services and maintain its
network. When the contractor began working for the grantee, the contract was
written to reflect him as the only individual who would be providing services
under the contract. According to the contractor, he began hiring staff to assist
him as the work expanded over time. However, the contract was never amended
to reflect the change in work or the cost of such work. Rather, the contractor
would simply bill the grantee for the cost of the contractor's additional employees,
which the grantee paid. The grantee's Executive Director stated that not
amending the contract to reflect the changes was an oversight and she
acknowledged that they did not have controls in place to prevent the payment of
amounts in excess of amounts authorized in the contract.

Basic internal controls ensure that one does not pay for something that has not
been ordered. Good contracting ensures that if changes are needed, such as
increasing the number of contract staff to perform the contract, a formal process
is entered into to determine what change will be made, when it will be made, and
at what cost. If it is determined that a change is necessary, then a formal
document should be drafted describing the change, in which both parties indicate
their acceptance of the new terms. This process would ensure adequate
documentation of the cost in accordance with 45 CFR Section 1630.3(a)(9).

As a result of our finding, we are questioning the $267,000 charged to LSC funds
as unsupported costs within the meaning of 45 CFR Sections 1630.2(g)(2) and
1630.3(a)(9), and will refer these costs to LSC management for review and
action.

Recommendations:        The Executive Director should:

1. Establish procedures to ensure that payments for services or goods do not
   exceed agreed upon prices and document these procedures in the
   Accounting Manual;

2. Enter into negotiations with the IT contractor to amend the current contract to
   fully reflect the work currently being performed and the associated costs; and

3. Develop a new statement of work clearly describing what the organization
   needs, the work product to be delivered, and how performance will be
   measured; and re-bid the contract under a competitive process to ensure that
   the organization receives the best value for its money.

Grantee Management Comments. The Executive Director stated:

   "LAD acknowledges that it did not revise the contract with MSM-NSI
   when the contractor expanded its staffing to meet organizational
   demands. Attached, is the revised contract that was executed on
   September 14, 2008.           The revised contract reflects LSC
   recommendations. It should be noted that when contractor services
   were increased, LAD implemented a procedure whereby the contractor
   was required to submit signed and approved timesheets that supported
   the hourly payments being made to MSM-NSI contract personnel.
   Specifically, the reported $267,000 in payments was supported with
   timesheets for all MSM-NSI personnel are based on the signed and
   approved timesheets. LAD was and is at all times, aware of and
   approves all payment amounts under the contract."

As a result of the OIG discussing this issue with grantee management
concerning the initial comments, supplemental comments dated January 17,
2009 were received on February 2, 2009. In these comments, the Executive
Director stated:

   "LAD will modify the contract to reflect the payments to MSM-NSI
   independent contractors. Specifically, the contract will be amended to
   provide a 'not to exceed' cost provision."

Evaluation of Grantee Manaqement Comments. Management comments and
actions do not address recommendations 1 through 3 in this report and will be
referred, along with the associated question costs, to LSC management for
review and action.
    Recommendation 1. Management comments addressed only the IT contract
and do not address the implementation of procedures governing payments under
contracts for goods and services generally. Specifically, management did not
indicate that procedures were established addressing payments for contracts and
that those procedures were included in the Accounting Manual.

    Recommendation 2. While management did revise the IT contract, we were
informed by management that the contractor's employees were still to be paid
based on timesheets submitted by the contractor. While a "not to exceed"
provision places a cap on the cost of the contract, the provision does not ensure
that the cost of services received is reasonable or that all services are included in
the contract.

    Recommendation 3. Management did not specifically state that the revised
contract included a new statement of work that captured all work to be
performed, the deliverables and the performance measures that would be used.
Also, management did not state the revised contract was a result of a competitive
process as recommended. Unless the full scope of work, with deliverables and
measurements are identified, potential contractors may not be able to accurately
bid on the contract. In addition, if one bidder includes only a portion of the cost in
the bid and the other bidders include the full cost, grantee management will not
have the appropriate information to make an informed decision and the bidder
who did not include all costs may have an unfair advantage.

We do not believe that adequate controls are in place to protect and.ensure that
LSC funds are properly expended. This is because the contract does not
address the cost of all services to be received and the contract may not have
been competitively bid or, if bid, one bidder may have had an unfair advantage
over other bidders. Therefore, we are referring the finding, recommendations,
and questioned costs to LSC management for review and action.


       Travel Payments

We noted four travel advances that were not supported by travel expense
reports, and several travel-related charges to the organization's credit card that
also were not adequately supported. Per discussion with the Executive Director
and Finance Director and a review of the grantee's Accounting Manual, the
grantee requires employees to prepare a Training Request Form in anticipation
of training-related travel, but it does not require employees to prepare an
expense report to reconcile the travel advances or to report charges made on the
organization's credit cards. Further, while the training request form is necessary
to obtain a travel advance, a copy of that form is not kept with disbursement
documentation.
The four travel advances totaled $812.50. The Check Request forms appeared
to be properly completed, but without travel expense reports we could not
determine whether the trips were actually completed and whether the advances
were reconciled. In addition, the Finance Director said she could not locate the
Training Request forms that related to the disbursements.

We reviewed three of the grantee's credit card bills and noted several travel
related expenses, but we were unable to relate these transactions to any
particular authorized trip. For example, two of these transactions were fuel
purchases. While the receipts were attached, we could not determine what
authorized travel event they were related to and why the purchases were
incurred. The Finance Director was unable to determine the authorized purpose
of the charges.

According to the grantee's Accounting Manual, "Employees whose actual
expenses are less than their per diem are not required to refund the excess.
However, excess amounts advanced for days not actually traveled [in case of
rescheduling], must be returned to the employer, or such amounts will be taxable
as wages." The manual does not, however, require employees to file an
expense report that the finance office can use to determine whether travel was
completed as anticipated, and whether funds are due back to the organization.

On March 20, 2008, LSC issued its "Fiscal Management and Use of LSC Funds"
advisory, which reminded grantees that proper documentation of expenditures
using LSC funds was important and that the utmost care must be given so that
programs avoid making inappropriate expenditures.

Recommendation 4: The Executive Director should revise the Accounting
Manual to require that: (1) travel expense reports are filed for all travel, travel
advances, and travel related expenses, such as fuel charges on credit cards;
(2) copies of all supporting documentation, including the Training Form Request,
are filed with the disbursement documentation; and (3) travel advance funds are
recouped if the travel for which they were advanced does not occur.

Grantee Manaqement Comments. The Executive Director stated:

   "The Training Form Request will be forwarded to Finance for filing with
   disbursement documentation. The Accounting Manual was updated
   and approved by the Board Directors (October 2008) to comply with
   this recommendation."

As a result of the OIG discussing this issue with grantee management
concerning the initial comments, supplemental comments dated January 17,
2009 were received on February 2, 2009. In these comments, the Executive
Director stated:
       "It is our understanding that LAD's reviewed process for handling
       per diem payments made to employees for travel purposes were
       difficult to trace; i.e. too difficult to match the travel with the
       payments. LAD has revised the "Per Diem Check Request" to
       include the following:
                      Check number for the payment of the hotel
                      Check       number       for   the    payment     of
                      airfareltransportation cost
                      Check number for conference registration fees
                      payment

       As a result of these changes, per diem payments will be easily
       traced to actual travel. It is LAD's position that implementation of
       this procedure will eliminate the need to have a staff member
       complete a report upon returning from the meeting or conference.

       In a related matter, the draft report issued a recommendation that
       LAD should revise its accounting manual to require that travel
       advance funds are recouped if the travel for which the funds were
       advanced does not occur. It should be noted that the manual does
       address this recommendation.

      Further, the draft report makes reference to fuel purchases with
      limited supporting documentation. It should be noted that the fuel
      purchase was based on travel paid through the Skillman
      Foundation grant, and not the Legal Services Corporation. The
      expenditure was on a credit card bill that included expenditures for
      LSC-paid conferences. We failed to bring this matter to the auditor
      while on-site."


Evaluation of Grantee Manasement Comments. Management actions partially
address Recommendation 4. While some changes have been made to address
the recommendation, management has not agreed to implement a requirement
to have travel expense reports for all travel, travel advances, and travel related
expenses.

Basic internal controls require that those responsible for the expenditure of funds
document and take responsibility for those expenditures. Relying solely on
checks sent to hotels, airlines, or others does not provide adequate control to
ensure that only reasonable and necessary expenses were paid with the
organization's fund and that the individual incurring the expenses takes
responsibility for those expenses. Not requiring the matching of expense reports
and costs incurred to amounts paid by the organization may allow the
unauthorized use of funds to go undetected because there is not adequate
documentation to fully support the payments made.
Although the Accounting Manual addresses the repayment of unused travel
advances, as indicated in management comments, it does not do so in a manner
adequate to ensure that travel advance funds are recouped if the travel for which
they were advanced does not occur. The current wording of the Accounting
Manual gives employees the misimpression that repaying unused advances is
optional. The manual states "...excess amounts advanced for days not actually
traveled, must be returned to the employer, or such amounts will be taxable as
wages." As such, it can be read to allow employees to retain travel advances,
although taxable as wages. The Manual should be changed to have repayment
of excess amounts as the only option rather than having the option of no
repayment as the Manual currently provides.

Therefore, we are referring the finding and recommendation to LSC management
for review and action.

         Alcohol and Alcohol Related Disbursements

The grantee expended LSC funds for an activity that included the purchase of
alcohol and liquor liability insurance. This expenditure was for an annual spring
reception held in May 2007. The supporting documentation showed $2,500.00
was expended for alcohol and non-alcohol purchases and $537.50 was for liquor
liability insurance. The documentation related to the $2,500.00 expenditure did
not provide sufficient detail to determine how much was spent on alcohol and
how much was spent on non-alcohol related items. Therefore, because grantees
are required to adequately document expenditures, we are questioning the entire
$2,500.00 and the $537.50 for liquor liability insurance as an unallowable use of
LSC funds.

Subsequent to GAO's December 2007 draft report, which noted issues relating to
the use of LSC funds for alcohol purchases, LSC issued an advisory on
March 20, 2008 referencing OMB Circular A-122, Attachment B, reminding
grantees that using LSC funds to purchase alcohol was prohibited.'

We question the $3,037.50 associated with the purchase of alcohol and related
liquor liability insurance and, pursuant to 45 CFR Part 1630, we are referring
these costs to LSC management for review and action.

Recommendation 5:     The Executive Director should update the grantee's
Accounting Manual to prohibit the purchase of alcohol with LSC funds.


  LSC's regulation 45 CFR 1630.3(i) and LSC's "Accounting Guide for LSC Recipients" state that the
Office of Management and Budget's (OMB) Circular A-122, "Cost Principles for Non-Profit
Organizations," is generally applicable to allowable cost questions arising from expenditures by LSC
grantees. The circular's Attachment B, "Selected Items of Cost," provides rules to be applied in
determining whether certain items of cost are allowable, and identifies alcohol as an unallowable expense.
Grantee Management Comments. The Executive Director stated:

       'The Accounting Manual will be revised to prohibit the purchase of
       alcohol with LSC funds. Furthermore, to ensure that grant funds
       are not used in the future for the purchase of alcoholic beverages,
       the following policy language will be added to the manual:

              "Alcohol Expenditures
              It is the policy of LAD to allow for the purchase of alcoholic
              beverages under limited circumstances; i.e. special LAD
              events, and with non-LSC funds. LSC Regulation 45 CFR
              1630.3 (i) and LSC's Accounting Guide for LSC Recipients
              prohibits the use of funds for the purchase of alcohol with
              LAD funds. It is recommended that any allowable purchases
              of alcoholic beverages be made from non-LSC funds.

       'It should be noted that the LSC questioned costs of $2,500.00 and
       $537.50 relate to LAD'S contribution/donation to the Wayne State
       University's Free Legal Aid Clinic (FLAC) annual fundraiser. The
       dollars were not expended for any LAD function. In the future, LAD
       will take steps to ensure that any contributions, donations, or
       reimbursements made to third parties for special events will be fully
       documented to detail all expenditures, so as to avoid this problem
       in the future."


Evaluation of Grantee Management Comments.                Management comments
address the issue identified pertaining to the purchase of alcohol. Management
indicated in its response that the Accounting Manual would state "It is
recommended [emphasis added] that any allowable purchases of alcoholic
beverages be made from non-LSC funds." However, the revised Accounting
Manual provided to the OIG by grantee management states the following in
regard to the purchase of alcohol "Any expenditures shall be made from the LAD
Friends of Legal Aid Account and not from grant funds.'' Because the Accounting
Manual includes a prohibition on purchasing alcohol with grant funds,
management actions are considered responsive to the recommendation to
ensure that this problem does not recur. However, we are referring the
questioned costs to LSC management for review and action. Finally, regarding
the comment indicating that the amounts questioned related to a contribution to
an legal aid clinic fundraiser, it should be noted that contributions or gifts of LSC
funds to other organizations or individuals are prohibited by LSC regulation 45
CFR Section 1627.5.
NON-GAO ISSUES IDENTIFIED DURING AUDIT

       Building Mortgage Paid with LSC Funds

The grantee used LSC funds to help purchase its headquarters building thereby
requiring the grantee to establish a reversionary interest for LSC in the building.
Grantee management stated that they had not intended to use LSC funds or to
create a reversionary interest for LSC in the building. However, in 2007 and
2008 the grantee allocated $102,017 of the building's mortgage interest
payments to LSC funds, thus requiring the grantee to create a reversionary
interest in the building for LSC.

Section 2-2.4 of the Accounting Guide for LSC Recipients states that LSC
maintains a reversionary interest in all real property purchased by a recipient
using LSC funds in whole or in part. Section 4(e) of LSC's Property Acquisition
and Management Manual requires LSC and the recipient to enter into a written
LSC property interest agreement prior to using LSC funds.

Since a reversionary interest has not been formally established in accordance
with LSC's Property Acquisition and Management Manual and it appears that the
grantee's intent is not to establish such a relationship, we question the $102,017
of LSC funds used in mortgage payments, and pursuant to 45 CFR Part 1630 we
are referring these costs to LSC management for review and action.

Recommendations:         The Executive Director should:

6.   Establish controls to ensure that all expenditures are properly allocated to
     the correct funding source;

7.   Contact LSC management to either establish a formal reversionary interest
     in the property, or repay LSC for all LSC funds used in purchasing the
     building;

8.   Create property records with regard to the building in accordance with the
     recordkeeping requirements of the LSC Property Acquisition and
     Management Manual if LSC funds are not repaid.

Grantee Management Comments. The Executive Director stated:

      "The Accounting Manual was updated and approved by the Board
      of Directors (October 2008) to comply with this recommendation.

      "At the LSC exit interview, it was not definitive if the payment of
      interest costs with LSC funds created a reversionary interest in its
      ownership of the facilities located at 613 Abbott Street and 1240
       Third Street. Upon subsequent notification that, indeed, the
       payment of mortgage interest with LSC funds created a
       reversionary interest, LAD took immediate steps to reverse the
       payments. The $102,017 cost cited in the report that was used for
       mortgage interest payments were reversed out and returned back
       to the LSC account.

       "It was never LAD'S intent to create a reversionary interest in its
       ownership of the facilities located at 613 Abbott Street and 1240
       Third Street. LAD has ceased using any LSC funding for mortgage
       or interest payments, and will not do so in the future.
       Consequently, therefore, there is no need to establish a formal
       reversionary interest agreement with LSC."

Evaluation of Grantee Mana~ementComments. Management actions taken
address the finding and recommendations.  Therefore the finding and
recommendations are closed.

       Telephone Intake

On two occasions we observed telephone intake workers not asking the callers if
they were citizens or eligible aliens. When asked why, one intake worker stated
that contemporaneously with the telephone call, she was able to verify on the
computer that the caller had been a prior client and that citizenshiplalien status
was indicated. The other intake worker stated that she had assumed the caller
was either a citizen or eligible alien.

We observed the screening of several incoming calls and noted that the intake
workers asked relevant questions to determine whether the caller should be
processed for intake or denied service with a referral to another organization if
possible. All callers but two were advised that the grantee could not assist them.
In processing the two accepted calls, the intake workers continued to ask
relevant questions except for the applicants' citizenship or alien eligibility.

Our review of the grantee's operations manual noted that it does not require
intake workers to ask about citizenship or alien eligibility. Instead, the manual
had the intake staff focus solely on the caller's legal issue, financial eligibility, and
possible conflicts of interests. Citizenship and alien eligibility were addressed in
the operations manual, but only after the initial intake screening. While the
screeners have access to the operations manual, they use a guidance sheet that
highlights the issues from the operations manual that they are to ask callers
about. Like the operations manual, the guidance sheet did not require screeners
to ask about citizenship or alien status.

LSC's regulation 45 CFR Part 1626, Restrictions on Legal Assistance to Aliens,
generally prohibits grantees from providing legal assistance for or on the behalf
of an ineligible alien. If the grantee only provides brief service via the telephone,
the grantee is not required to obtain signed citizenship attestations or review
eligible alien documentation. However, the grantee still must have the caller
assert their citizenship or alien eligibility.

After we discussed our observations of intake screening with grantee
management, they immediately revised the telephone intake guidance sheet so
that questions on citizenship and alien eligibility would be asked first. We believe
this was a positive step to improve telephone intake with regard to citizenship
and alien eligibility, and demonstrated management's concern with conducting
intake in accordance with LSC regulations.

Recommendation 9:       The Executive Director should revise the grantee's
operations manual to require intake screeners to ask applicants whether they are
U.S. citizens or what their alien status is, and retrain the intake staff about the
need to ask about U.S. citizenship and alien status to determine eligibility.

Grantee Management Comments. The Executive Director stated:

   "Staff was retrained on the policy the Friday after the incident. New
   staff are trained when hired and this issue will be addressed annually.
   The citizenship question has been moved up on the screening process
   form and the screening tool in our new case management system has
   been configured to address this issue. The citizenship questions are
   now follows [sic] the second question asked after the question: 'What
   is Your Legal Problem."'

Evaluation of Grantee Management Comments. Management actions taken
address the finding and recommendation.   Therefore the finding and
recommendation are closed.

      Cost Allocations Not Always Supported

The grantee did not adequately support three reallocations between United Way
and LSC. As a result, we were not able to determine whether the disbursements
were allowable and allocable to the LSC grant. We also found two transactions
related to the reallocations that the grantee incorrectly recorded twice.

The reallocations were transfers from United Way to LSC for $1,833.76, $474.50,
and $147.78, respectively. At our request, the Finance Director researched the
reallocations but was unsuccessful in finding supporting documentation. The
Finance Director also could not recall the reason for the reallocations and how
the amounts were derived.

The Accounting Guide for LSC Recipients, Section 3.5-6, states that each entry
to the general journal should be, among other things, fully described and
adequately documented. Incomplete, inaccurate, or unsupported entries to the
general journal increase the possibility that the financial data may misrepresent
the actual financial position of the grantee.

We also noted there were duplicate postings of $236.00 and $324.50 to the
general journal for two transactions related to the reallocations. We are
questioning these duplicate charges.

We consider the $2,456.04 reallocated from the United Way to LSC funds and
the $560.50 in duplicate postings to be questioned costs within the meaning of
45 CFR Part 1630, and we are referring these costs to LSC management for
review and action.

 Recommendation 10: The Executive Director should ensure that all general
journal entries are fully described and adequately supported as required by the
LSC Accounting Guide for LSC Recipients.

Grantee Management Comments. The Executive Director stated:

   "The President and CEO will review procedures to verify adherence to
   this recommendation. Journal entries will be fully described and
   properly documented ."

Evaluation of Grantee Mana~ement Comments.          Management comments
address the finding and recommendation. However, we are referring the
questioned costs to LSC management for review and action.

      Allocation of Indirect Costs

LSC's regulation 45 CFR Part 1630.3(f) allows the allocation of indirect costs
where total allowable indirect costs are divided by an equitable distribution base
and distributed to individual grant awards accordingly. The grantee does not use
a distribution base that assures an accurate distribution among individual grant
awards.

During the year, the grantee's indirect costs are allocated to various funding
sources based on the previous year's data, but the grantee does not adjust the
allocations at the year end based on current year data. The grantee's
Accounting Manual does not require indirect costs be adjusted at the fiscal year
end based on that year's actual distribution base.

LSC's regulation 45 CFR Part 1630.3(i) states that OMB Circulars shall provide
guidance for all allowable cost questions arising under Part 1630, as long as the
Circulars' relevant policies or criteria are not inconsistent with relevant LSC laws
and regulations. OMB Circular A -122, provides guidance concerning the base
period for allocating indirect costs, and that is the period in which such costs are
incurred and accumulated for allocation to work performed in that period. As an
example, the base period for indirect costs incurred during 2008 should likewise
be 2008. In contrast, the grantee uses 2007 as the base year for allocating costs
incurred in 2008. By not matching indirect costs to the base year in which the
costs were incurred, the grantee potentially misstates the relative benefits that
such expenditures may impart to a particular fund.

Recommendation 11: The Executive Director should (1) adjust indirect costs to
the various funding sources at the fiscal year end using that year's actual
distribution base, and (2) revise the Accounting Manual to require a fiscal year
end adjustment of indirect costs based on that year's actual distribution base.

Grantee Management Comments. The Executive Director stated:

      "The accounting manual section 'Administrative Fees' will be
      updated to reflect this recommendation."

Evaluation of Grantee Manaqement Comments. Management comments
address the finding and recommendation. The Accounting Manual has been
modified. Therefore, we consider the finding and recommendation closed.
                                                                                                                                                      APPENDIX I
                                                    Main Office            Client Service Center            Oakland County                   Macornb County                       Flint
                                                   613 Abbott Street           1240 Third Street           Oakland Towne Center          Robert A. Verkuilen Building      653 South Saginaw
                                                   Detroit, MI 48226           Detroit, MI 48226          28 North Saginaw Street           21885 Dunham Road                   Suite 105
                                                   313.967.5555 ph             313.967.5800 ph                   Suite 510                         Suite 4                   Flint, MI 48502
LEGAL AID AND DEFENDER                             313.962.0747 fx             313.962.0290fx                Pontiac, MI 48342           Clinton Township, MI 48036         810.232.3600 ph
A S S O C I A T I O N           N    C                                                                       248.253.1548 ph                   586.465.1344 ph              810.232.9434 fx


Deierdre L. Weir
Executive Director & CEO

Joan Glanton Howard
Chief Counsel
Civil Law Group

Miriam L. Siefer                    December 12,2008
Chief Defender
Federal Defender Office
Criminal Law Group
                                    Ronald D. Merryman
Donald L. Johnson
Chief Defender
                                    Assistant Inspector General For Audit
State Defender Office               Legal Services Corporation
Criminal Law Group                  3333 K. Street, NW 3rdFloor
Regina Daniels-Thomas               Washington, DC 20007-3522
Chief Counsel
Juvenile Law Group
                                    Dear Mr. Merryman,

                                    Legal Aid and Defender Association (LAD), Inc. is writing in response to
                                    your letter dated October 29, 2008 regarding the audit for Selected Internal
                                    Controls.

                                    Enclosed are the following documents:

                                         1. Response to Recommendations
                                         2. l r r Contract

                                    A copy of the updated Accounting Manual will be forward via email.

                                    If you have any questions, please contact Angela Smith, V.P., Finance at
                                    (313) 967-5602.




                                    President and CEO

                                    Enclosures




                           Providing High Quality Legal Services to Disadvantaged Residents of Metro Detroit Since 1909.
                           Legal Aid and Defender Association, lnc is funded by the Legal Serwces Corporabon, United Way for Southeastern Michigan, Michigan State Bar Foundabon,
             II= LSC C~tyof Detroit
            =I'                          Wayne Counk Adrninatrative M c e of US. Courts, U.S Department of Housing and Urban Deveioprnent and private donations.                     ,-,
                  LEGAL AID AND DEFENDER ASSOCIATION, INC.

                                  RESPONSE TO THE

                        LEGAL SERVICES CORPORATION
                 OFFICE OF INSPECTOR GENERAL AUDIT REPORT


Information Technology Contract

Response to Recommendations 1 - 3

LAD acknowledges that it did not revise the contract with MSM-NSI when the contractor
expanded its staffing to meet organizational demands. Attached, is the revised contract
that was executed on September 14, 2008. The revised contract reflects LSC
recommendations. It should be noted that when contractor services were increased,
LAD implemented a procedure whereby the contractor was required to submit signed
and approved timesheets that supported the hourly payments being made to MSM-NSI
contract personnel. Specifically, the reported $267,000 in payments was supported with
timesheets for all MSM-NSI personnel who work under the direct supervision of the
contractor. Payments to MSM-NSI personnel are based on the signed and approved
timesheets. LAD was and is at all times, aware of and approves all payment amounts
under the contract.

Travel Payments

Response to Recommendation 4

The Training Form Request will be forwarded to Finance for filing with disbursement
documentation. The Accounting Manual was updated and approved by the Board of
Directors (October 2008) to comply with this recommendation.


Alcohol and Alcohol Related Disbursements

Response to Recommendation 5

The Accounting Manual will be revised to prohibit the purchase of alcohol with LSC
funds. Furthermore, to ensure that grant funds are not used in the future for the
purchase of alcoholic beverages, the following policy language will be added to the
manual:

Alcohol Expenditures

It is the policy of LAD to allow for the purchase of alcoholic beverages under limited
circumstances; i.e. special LAD events, and with non-LSC funds. LSC Regulation 45
CFR Part 1630.3 (i) and LSCJsAccounting Guide for LSC Recipients prohibits the use
of funds for the purchase of alcohol with LAD funds. It is recommended that any
allowable purchase of alcoholic beverages be made from non-LSC funds.

It should be noted that the LSC questioned costs of $2,500.00 and $537.50 relate to
LAD'S contribution/donation to the Wayne State University's Free Legal Aid Clinic
(FLAC) annual fundraiser. The dollars were not expended for any LAD function. In the
future, LAD will take steps to ensure that any contributions, donations, or
reimbursements made to third parties for special events will be fully documented to
detail all expenditures, so as to avoid this problem in the future.

Building Mortgage Paid with LSC Funds

Response to Recommendations 6 - 8

The Accounting Manual was updated and approved by the Board of Directors (October
2008) to comply with this recommendation.

At the LSC exit interview, it was not definitive if the payment of interest costs with LSC
funds created a reversionary interest in its ownership of the facilities located at 613
Abbott Street and 1240 Third Street. Upon subsequent notification that, indeed, the
payment of mortgage interest with LSC funds created a reversionary interest, LAD took
immediate steps to reverse the payments. The $102,017 cost cited in the report that
was used for mortgage interest payments was reversed out and returned back to the
LSC account.

It was never LAD'S intent to create a reversionary interest in its ownership of the
facilities located at 613 Abbott Street and 1240 Third Street. LAD has ceased using any
LSC funding for mortgage or interest payments, and will not do so in the future.
Consequently, therefore, there is no need to establish a formal reversionary interest
agreement with LSC.


Telephone Intake

Response to Recommendation 9

Staff was retrained on the policy the Friday after the incident. New staff are trained
when hired and this issue will be addressed annually. The citizenship question has
been moved up on the screening process form and the screening tool in our new case
management system has been configured to address this issue. The citizenship
questions are now follows the second question asked after the question: "What is Your
Legal Problem."
Cost Allocations Not Always Supported

Response to Recommendation 10

The President and CEO will review procedures to verify adherence to this
recommendation. Journal entries will be fully described and properly documented.


Allocation of Indirect Costs

Response to Recommendation 1I

The accounting manual section "Administrative Fees" will be updated to reflect this
recommendation.
                           I T SERVICES AGREEMENT
This Agreement is made effective October 1, 2008 ("Effective Date"), by and between
the Legal Aid and Defender Association, Inc. ("LAD'? and MSM Networking Solutions
Inc. ('NSI").

1. DESCRIPTION OF SERVICES:

a. NSI shall provide to LAD the services at the service levels defined on Exhibit A (the
   'Services'').

b. NSI shall furnish an adequate number of properly trained and fully qualified
   personnel, including supervisory and management personnel, to provide Services
   (See Exhibit C).

c. From time to time, LAD may request that NSI pelform services that are outside the
   scope of the Services, or are not included in the Services, and all such services will
   be known as "Supplemental Services." NSI shall propose pricing (which may
   include fixed fee pricing), a project plan, a timeline and a payment schedule for all
   Supplemental Services. I f the proposal for Supplemental Services is approved by
   LAD, the pricing, payment schedule and other terms applicable to the
   Supplemental Services shall, by reference therein, become a part of this
   Agreement.

d. Any NSI employee or contractor assigned to work for NSI under this Agreement
   who will have access to LAD facilities, personnel, computers or electronically stored
   information must have his or her assignment first approved by LAD, in writing.
   Such approval will be granted at LAD'S sole discretion. LAD reserves the right to
   request at any time and for any reason that any employee, contractor, contractor,
   or agent of NSI providing services to NSI under this Agreement to be removed
   from and no longer assigned by NSI to perform such services. Said individual(s) or
   contractor(s) shall be promptly replaced, as necessary, to the satisfaction of LAD.
   NSI shall promptly comply with such request by LAD and agrees and acknowledges
   that LAD will bear no liability relating to its right to remove such individuals from
   providing such setvices and having such individuals replaced. NSI's decision to
   continue any removed employee's employment on other NSI assignments is solely
   a matter within NSI's discretion.

e. Each individual provided by NSI hereunder shall be employees or independent
   contractors of NSI. The hiring and engaging, staffing, supervising, directing,
   evaluating, scheduling, assigning, disciplining, firing and terminating, establishing
   of rates of pay, benefits and other personnel and contract related matters involving
   NSI provided personnel shall be the sole responsibility of NSI. All contractors
   contracted by and with NSI to provide service under this Agreement shall be
   contractors of NSI and neither said contractors, nor their employees, shall have
   any contractual or employment relationship with LAD. LAD shall have no
   obligation to control, or right to control, any NSI employee or any contractor
   contracted by and with NSI (including any such contractor's employees) with
   respect to services performed by such employee or contractor under this
   Agreement. NSI assumes sole responsibility for ail payments and other obligations
   due to said employees and contractors performing services for LAD due to this
   Agreement, including but not limited to all obligations to employees under
   applicable law (including but not limited to the federal Fair Labor Standards Act,
   the Family and Medical Leave Act, the Employee Retirement and Income Security
   Act, the Internal Revenue Code, the Civil Rights Act of 1964, the Age
   Discrimination in Employment Act, the Americans with Disabilities Act, the Worker
   Adjustment and Retraining Notification Act, and the National Labor Relations Act,
   as well as state civil rights laws, employment laws, workers' and unemployment
   compensation laws). NSI shall also be solely responsible for a recordkeeping and
   postings with respect to its employees and such contractors as may provide it with
   services in relation to this Agreement. It is the parties' intent with regard to such
   employees and contractors that LAD shall bear no obligation or burden of an
   employer to said parties. Such contractors and employees shall not also be, nor
   shall they be deemed to be, common law employees of LAD.

  NSI acknowledges that NSI has reviewed and agrees to abide by all relevant
  employee, contractor or contractor policies or statements with respect to conduct
  at the workplace. NSI will be responsible for acquainting each NSI employee,
  contractor, contractor or agent with the contents of these policies or statements
  and ensuring that each employee, contractor, contractor or agent abides by them
  and any updates thereto as issued by LAD from time to time. NSI shall provide its
  employees, contractors, contractors, and agents and work vehicles with
  identification in accordance with current LAD requirements. NSI and its
  employees, contractors, contractors, and agents shall abide by all LAD work rules,
  as generally required by LAD and communicated to NSI, while on LAD premises.
  LAD shall have the right to modify the work rules or promulgate additional work
  rules, and NSI and its employees, contractors, contractors, and agents shall
  comply with such modified or additional work rules immediately following receipt
  thereof.

2. DURATION OF AGREEMENT: This Agreement shall become effective on the
  Effective Date and shall terminate on September 30, 2010.

3. TERMINATION OF AGREEMENT: LAD may terminate this Agreement at any
  time, with or without notice or cause. Upon termination, all payments due NSI
  under this Agreement, shall be prorated based on the number of uncompensated
  days worked at the time of the termination of this Agreement.
4. PAYMENT: LAD shall pay to NSI FOUR THOUSAND THREE HUNDRED AND FIFTY-
   KIUR DOLLARS AND S m E N CENTS ($4,354.16) for Services rendered coincident
   with LAD'S payables cycle on the fifteen and last day of each month.

5. TAX LIABILITY:

a. As an independent contractor, hired to perform the Services, NSI shall be
   responsible for its tax liability, including all payments and liabilities due to or on
   behalf of its employees or contractors.

b. It is understood that LAD is recognized as a tax-exempt organization under federal
   and state law. As such, it is exempt from state and federal sales and use taxes
   and from certain other excise or services taxes on goods and services used in
   furtherance of its exempt purpose (the "Tax Benefits"). In the event that NSI is
   authorized by LAD to purchase goods or services on behalf of LAD as part of its
   provision of the Services, NSI will use its best efforts to structure relationships with
   third parties pursuant to this Agreement so LAD receives the appropriate Tax
   Benefits of its tax-exempt status with respect to items and services provided to or
   for the benefit of LAD by such third parties. LAD shall be responsible for paying
   any personal property or use taxes due on or with respect to any property owned
   by LAD or purchased in its name. Upon request, LAD will provide NSI with a copy
   of its Tax Exempt certificate or similar document proving its tax exempt status.

6. INSURANCE: At all times during the term of this Agreement, NSI shall obtain
   and maintain general liability and such other insurance or programs of self-
   insurance with such terms and limits of liability as are reasonably satisfactory to
   LAD, including but not limited to automobile liability insurance covering a NSI
   employee's use of a vehicle while performing services under this Agreement;
   employee dishonesty (fidelity) and computer crime coverage (for losses arising out
   of or in connection with any fraudulent or dishonest acts committed by a NSI
   employee, agents or contractors, acting alone or in collusion with others).

7. WORKERS COMPENSATION:

a. LAD shall have no responsibility to provide NSI, its employees, contractors or
   agents with workers' compensation insurance or protections. NSI shall also
   maintain appropriate worker's compensation insurance coverage for all NSI
   employees assigned to work under this Agreement, and NSI shall also be
   responsible for assuring that all contractors are similarly protected under such
   insurance. All policies required of NSI hereunder shall name LAD as an additional
   insured with respect to acts of NSI and its employees, representatives and
   contractors. Upon request, NSI shall promptly provide LAD with its coverage limits
   and evidence thereof, and proof that LAD is a named insured on such policies of
   NSI.
b. NSI waives any right to recover from LAD the costs of, and/or damages from, any
   injuries that NSI, its employees, agents, or contractors may sustain while
   performing Services ("Injuries"). NSI shall indemnify, defend and hold LAD
   harmless from any loss and/or liability arising or resulting from any and all
   threatened or actual claims, suits, actions, proceedings, liabilities, costs, expenses,
   damages or fees (including attorney's fees) arising from or relating to alleged or
   actual Injuries.

8. EDUCATION AND TRAINING: LAD will provide NSI with ongoing professional
   development and training deemed necessary and appropriate to ensure NSIts
   perFormance under this Agreement. Requests for training shall be submitted to the
   President and CEO for approval. LAD will pay in advance, or provide
   reimbursement to NSI, for all training courses taken.

9. EXPENSES: LAD shall reimburse NSI for all reasonable and necessary LAD-
   related travel expenses, as described in Exhibit 0.

10.CONFLICTS OF 1NTEREST: NSI shall immediately disclose any outside activities
   or interests, including ownership or participation in the development of any prior,
   current or future inventions, that conflict, or may conflict, with the interests of
   LAD.

11.WORK PRODUCT OWNERSHIP: NSI and/or its empJoyees, agents and
   contractors shall, and hereby do, assign and transfer to LAD all right, title and
   interest in and to any copyrightable works, ideas, concepts, discoveries, inventions,
   methods, processes, patents, products, improvements, modifications or other
   information (collectively, "Work Product") invented, authored, developed or
   otherwise created in whole or in part by NSI or its employees, agents and
   contractors in connection with the performance Services. Any Work Product
   protected by copyright is "work for hire," as defined in the Copyright Act. Upon
   request, NSI shall sign any and all documents necessary to confirm or perfect the
   exclusive ownership of LAD of the Work Product. NSI shall ensure that NSI's
   employees, agents and contractors execute agreements sufficient to effect the
   assignment and transfers herein prior to their providing services to LAD.

12. DISCLOSURE OF INFORMATION:

a. Neither NSI nor its employees, agents, or contractors, will at any time or in any
   manner, directly or indirectly, use any information that is owned by, or proprietary
   to LAD and/or its clients (collectively, "Information") for any purpose other than
   the provision of Services hereunder; or divulge, disclose, or communicate in any
   manner, any Information to any other party without the prior written consent of
   LAD. Further, NSI, its employees, agents, or contractors, shall protect the
   information and treat it as strictly confidential. A violation of this Section shall
   result in immediate termination of this Agreement. This Section shall continue in
   effect after the termination of this Agreement.

b. Upon termination of this Agreement, NSI shall return all records, notes,
   documents, LAD equipment, and other items that were used, created or controlled
   by NSI during the term of this Agreement. Further, NSI recognizes that LAD has
   and maintains ownership and control of all information.

c. I f NSI is given access, whether on-site or through remote facilities, to any LAD
   computer or electronic data storage system in order for NSI to accomplish the
   Services and other services called for in this Agreement, NSI shall limit such access
   and use solely to perform such services within the scope of this Agreement and
   shall not access or attempt to access any computer system, electronic file,
   software or other electronic services other than those specifically required to
   accomplish the Services required under this Agreement. NSI shall limit such access
   to those of its employees, contractors and agents whom LAD has authorized in
   writing to have such access in connection with this Agreement, and shall strictly
   follow all MD's security rules and procedures for use of LAD'Selectronic resources.
   All user identification numbers and passwords disclosed to NSI and any information
   obtained by NSI as a result of NSI's access to and use of LAD's computer and
   electronic data storage systems shall be deemed to be, and shall be treated as,
   information under applicable provisions of this Agreement. NSI agrees to
   cooperate with LAD in the investigation of any apparent unauthorized access by
   NSI to LAD'Scomputer or electronic data storage systems or unauthorized release
   of Information by NSI.

13. EFFECT OF TERMINATION:

a. Commencing six (6) months prior to expiration of the Term or for six (6) months
   after termination of this Agreement for any reason other than the non-payment of
   uncontested fees by LAD, NSI shall, upon the written request of LAD, reasonably
   cooperate with LAD in the orderly transfer of NSI's obligations under this
   Agreement CTransition Services'') and shall use its best efforts to ensure that such
   transfer does not result in a material adverse effect on the information systems
   and business operations of LAD. NSI will cooperate with LAD, and its designees,
   and provide the assistance reasonably requested by LAD or its designees, to allow
   LAD to continue without material interruption or adverse effect and to facilitate the
   orderly transfer of responsibility for the Services then being provided by NSI to
   LAD or its designees, including the following: continuing to perform any or all
   Services currently being performed by NSI, developing, with the assistance of LAD
   or its designees, a plan for the transition of the Services then being performed by
   NSI to LAD or its designees, and providing training for personnel of LAD or its
   designees in the performance of Services then being performed; provided,
   however, that any transition Services that are not Services shall be billed by NSI,
   and paid by LAD, at NSI's then-prevailing rates for such services. In addition and in
   furtherance of the foregoing, NSI shall, if so requested by LAD, continue to provide
   Services, at the then current rate hereunder as provided for herein, and for a
   period not exceeding six months following the date of termination, the then
   current level of Services. I n addition, NSI shall, if so requested by LAD, provide
   additional personnel at NSIfsthen prevailing hourly rates.

b. Ifthe nature of any NSI breach of this Agreement leading to termination by LAD is
   inconsistent with the provision, in LAD'S reasonable discretion, of Transition
   Services, then NSI shall reimburse LAD for all internal and third-party costs, fees
   and expenses associated with the transition from NSI to another service provider.

c. NSI shall return to LAD all LAD-owned hardware, software and LAD data upon
   termination or expiration of this Agreement, or to the extent such hardware,
   soflware, and data is used to perform Transition Services, upon the termination of
   such services. Further, LAD may, at its discretion, offer to employ or retain any
   employees or contractors of NSI who provided services to NSI under this
   Agreement to work for LAD aRer the termination of this Agreement.

d. Articles 6 (until the statute of limitations has run on all possible claims arising
   herefrom), 7(b) and 11-19 shall survive the termination or expiration of this
   Agreement.

14.NOTICES: All notices required or permitted under this Agreement shall be in
   writing and shall be deemed delivered when delivered in person or deposited in the
   United States mail, postage prepaid, addressed to:

                     Deierdre L. Weir, President and CEO
                     Legal Aid and Defender Association, Inc.
                     613 Abbott Street, 6thFloor
                     Detroit, Michigan 48226-1348

                     Mark S. Montgomery, Owner
                     MSM Networking Solutions
                     NSI Management Services, Inc.
                     P.O. Box 31-2572
                     Detroit, Michigan 48226

Either party shall provide written notice of a change of address.
a. NSI hereby represents and warrants to LAD as follows:

     i.    NSI is a duly organized and validly existing corporation in good standing
           under the laws of the State of Michigan.
     ii.   NSI has all necessary power and authority to enter into and perform this
           Agreement and to consummate the transactions contemplated hereby. The
           execution and delivery by NSI of this Agreement and the consummation by
           NSI of the transactions contemplated herein constitutes the legal, valid and
           binding obligation of NSI and is enforceable against NSI in accordance with
           its terms.
    iii.   The execution, delivery and performance of this Agreement by NSI and the
           consummation of the transactions contemplated hereby will not (i) conflict
           with or result in a breach of any provision of the articles of incorporation,
           bylaws, or any other charter documents of NSI, (ii) result in any conflict
           with, breach of, or default (or give rise to any right to termination,
           cancellation or acceleration or loss of any right or benefit) under or require
           any consent or approval which has not been obtained with respect to any of
           the terms, conditions or provisions of any material contract or agreement to
           which NSI is a party, or (iii) violate any order, law, rule or regulation
           applicable to NSI.
   iv.     NSI and its employees, agents and contractors shall be qualified to perform
           all of the services hereunder in a timely, competent and professional
           manner. The Services shall be performed pursuant to the terms of this
           Agreement and in a competent manner consistent with the highest industry
           standards. No asset of LAD shall reside on the premises of any shareholder
           of NSI.
    v.     In performing hereunder, NSI shall abide by any and ail laws, regulations
           and accreditation standards applicable to it.
   vi.     lAD's use of the Work Product shall not violate the rights, including without
           limitation, patent, copyright or contract rights, of any third party.
   vii.    Neither the Work Product, nor any work delivered to LAD hereunder shall
           contain any viruses, Trojan horses, trap doors, back doors, Easter eggs,
           worms, time bombs, cancelbots or other computer programming routines
           that are intended to damage, detrimentally interfere with, surreptitiously
           intercept or expropriate any system, data or personal information.
b. NSI shall indemnify, defend and hold LAD harmless from any loss and/or liability
   arising or resulting from any and all threatened or actual claims, suits, actions,
   proceedings, liabilities, costs, expenses, damages or fees (including attorney's
   fees) arising from or relating to NSI1salleged or actual breach of this Agreement,
   including without limitation, the representations and warranties contained herein.

16. ENTIRE AGREEMENT: This Agreement including its Exhibits contains the entire
   Agreement of the parties and there are no other representations, warranties,
   promises or conditions in any other agreement whether oral or written. This
   Agreement supersedes any prior written or oral agreements between the parties.
   Any changes and/or modifications to this Agreement shall be effective only with
   the written approval of the President and CEO.

17.AMENDMENT: This Agreement may be modified or amended only if the
   amendment is made in writing and is signed by both parties.

18.SNERABIUTY: I f any provision of this Agreement shall be held to be invalid or
   unenforceable for any reason, the remaining provisions shall continue to be valid
   and enforceable. I f a court finds that any such provision of this Agreement is
   invalid or unenforceable, but that by limiting such provision it would become valid
   and enforceable, then such provision shall be deemed to be written, construed,
   and enforced as so limited.

19.CHOICE OF LAW AND VENUE:

a. This Agreement shall be construed in accordance with and shall be governed by
the law of the State of Michigan, without regard to its principles of the conflicts of laws
and shall be construed without regard to any presumption or any other rule requiring
construction against the Party causing the Agreement to be drafted.

b. With respect to any controversy arising from or related to this Agreement, each
party hereby irrevocably submits to the exclusive jurisdiction of the state courts in
Wayne County and federal courts in the Eastern District of Michigan, and each party
hereby irrevocably agrees that all controversy related to this Agreement will be heard
and determined exclusively in such courts and waive any objection to venue therein
including without limitation assertions of forum non conveniens. The parties hereby
submit to service of process by registered mail or an overnight courier comparable to
Federal Express.
I N WITNESS WHEREOF, the parties agree to the foregoing as of the Effective Date.



MSM Networking


By:                                           Date:

      Owner


                                  -,

Legal Aid and Defender Association, Inc.


                                             Date:

      President a W 0
                                 Exhibit A

                                     Services


Supervise activities of MIS staff.

Identify critical business issues and develop workable solutions for customers as
well as MIS associates. These solutions may include enhancements to existing
core applications, new software packages, and/or customer programs.

Define MIS standards and policies in compliance with external auditors.

Identify, recommend, and manage deployment of "best of breed" hardware and
software upgrades and purchases for LAD.

Prepare and manage the Management Information Systems operating.

I n conjunction with users, prepare, test, and maintain a disaster recovery plan
for administrative systems.

In conjunction with users, develop and maintain documentation, procedures,
security, and training of staff members and end users of administrative
systems.

Maintain professional expertise in administrative computing systems and
technology.
                                      Exhibit 8
                                    Travel Policy



All travel shall be pre-approved, in advance, by the President and CEO. LAD shall
reimburse NSI for all reasonable L4D business-related expenses while traveling to
conduct LAD business and/or to attend conferences, trainings, or meetings that inure
to the benefit of LAD. All expenses for which reimbursement is requested shall be
documented on a form approved by LAD. Receipts shall be attached to the form.
Meals shall be reimbursed based on actual expense incurred, not to exceed $30.00 per
day. LAD shall arrange all NSI, LAD-related business lodging and air travel. Air travel
shall be paid or reimbursed based on a fare no higher than regular coach fare for
airfare.
                                      Exhibit C


                         Consultant Hiring Schedule




* Note: Placement fee is stated as a percentage of agreed upon starting salary
between consultant and customer.
:   : F E B , 2. 2009                  1:l7PM         '   LEGAL AID &         DEF
                                                                               116-r. -
                                                                                      ;

                                                          Idlain 0 % ~        '   Climt Service Conter
                                                          613 Abbtit Street       1240 Third Street
                                                          Detroit, MI 48226       Detroit, MI 48226
                                                          313.?67.65!55 ph        31 3.961.5200 ph
                                                          313.962.6747 hc
                                                          Providing High Quality Lee1 S o d c a s B DisaJvantased Rcsiderab cf Motr~
                                                                                                                                   DPetroit Since




    Oeiordrc L Wdr
    P~~odwr
         6 CEO
                                         January 17,2009
    Gccmw vm Pt&I             8
    ~              ~               0          1
    ~ o d o t ~ ~ o l MOO
                      ~drx               David Young
    Joan Gbntan ~ o w e r d              Supervising Senior Auditor
    Ulier bun?&
    C~WUW~;IOUP                          Legal Services Corporation
    ReciN                 mornss         3333 K Street, NW, 3d Floor
    OWI Counpd
                     GW
    ~ v v p a i rL ~ W                   Washington, D.C. 20007
    DOKIN    L. Johnson
    ~l)oiarldor
    ~ r n ~ d ~ o l w c o                Dear Mr. Young:

                                         Please allow this lett'er'td serve as the Legal Aid and Defender Association, Inc.
                                         response to two issues raised in the Corporation's audit report,

                                         1.     Information Technolow Contract
                                         tAD will modify the contract t o reflect the payments to MSM-NSI independent
                                         contractors. Specifically, the contract will be amended to provide a "not to
                                         exceed" cost provision.

                                         It.      Travel Pavments
                                         it is our understandingthat LAD'S reviewed process for handling per diem
                                         payments made to employees for travel purposes were difficult t o trace; i.e.
                                         too difFicult to match the travel with the payments. LAD has revised the "Per
                                         Diem Check Request" t o include the following:
                                                 Check k r n b e r for the p*kent of the hot&l-
                                                  ,


                                              . Check number for the payment of airfare/transportation cost
                                                 Check number for conference registration fees payment

                                         As a result of these changes, per diem payments will be easily traced to actual
                                         travel. It is LAD'S position that implementation of this procedure will eliminate
                                         the need to have a staff member complete a report upon returning from the
                                         meeting or conference.

                                         ln a related matter, the draft report issued a recommendation that LAD should
                                         revise its accounting manual t o require that travel adva'ncg funds are recouped
FEB.   2, 2009 1 : 1 8 P M    L E G A l A I D & DEFENDER



            January 17,2009
            LSC Audit Draft Report Response




            ifthe t r a v e l for which the funds were advanced does not occur. It should be noted that
            the manual does address this recommendation.

            Further, t h e draft report makes reference t o two fuel purchases with limited supporting
            documentation- It should be noted that the fuel purchase was based o n travel paid
            through the Skillman Foundation grant, and not the Legal Services Corporation. The
            expenditure was on a credit card bill that included expenditures for LSC-paid conferences.
            We failed t o bring this matter to the auditor while on-site.

            If you have any additional questions or concerns, please feel free to contact me or the
            Vice President, Finance, Angela Smith.

            Sincerely,              A
